BALTIMORE COUNTY PUBLIC SCHOOLS
     1940-G GREENSPRING DRIVE
    TIMONIUM, MARYLAND 21093

   NATIONAL SCIENCE FOUNDATION
         AWARD NUMBER
            EHR-0227256

          FINANCIAL AUDIT OF
       FINANCIAL SCHEDULE AND
INDEPENDENT AUDITORS’ REPORT FOR THE PERIOD
 OCTOBER 1, 2002 TO DECEMBER 31, 2004




                           MAYER HOFFMAN McCANN P.C.
                                         An Independent CPA Firm
                          Conrad Government Services Division
                                  2301 Dupont Drive, Suite 200
                                       Irvine, California 92612
              FOR OFFICIAL USE ONLY
           REPORT RELEASE RESTRICTION




            REPORT RELEASE RESTRICTION

THIS REPORT MAY NOT BE RELEASED TO ANYONE OUTSIDE
THE NATIONAL SCIENCE FOUNDATION WITHOUT ADVANCE
APPROVAL BY THE NSF OFFICE OF INSPECTOR GENERAL. THE
ONLY EXCEPTION IS AN AGENCY INVOLVED IN NEGOTIATING
OR ADMINISTERING NSF AWARDS. THE INFORMATION IN THIS
REPORT SHOULD BE TREATED AS CONFIDENTIAL AND MAY
NOT BE USED FOR PURPOSES OTHER THAN ORIGINALLY
INTENDED WITHOUT PRIOR CONCURRENCE FROM THE NSF
OFFICE OF INSPECTOR GENERAL.
                                        BALTIMORE COUNTY PUBLIC SCHOOLS


                                                               Table of Contents

                                                                                                                                                      Page

Executive Summary:
  Background ......................................................................................................................................     1
  Audit Objectives, Scope and Methodology......................................................................................                         2
  Summary of Audit Results ...............................................................................................................              2
  Exit Conference................................................................................................................................       4

Compliance and Internal Controls:
  Report on Compliance and Other Matters and on Internal Control over Financial Reporting ........                                                      5
  Finding and Recommendation..........................................................................................................                  7

Financial Schedules and Supplemental Information:
  Independent Auditors’ Report on Financial Schedule .....................................................................                              9
  Schedule A - Schedule of Award Costs ...........................................................................................                     11
  Schedule B - Schedule of Questioned Costs ....................................................................................                       12
  Schedule C - Summary Schedule of Award Audited and Audit Results .........................................                                           14
  Notes to Financial Schedule ............................................................................................................             15

Appendix - Awardee’s Comments to Report
EXECUTIVE SUMMARY
BACKGROUND

We audited funds awarded by the National Science Foundation (NSF) to Baltimore County Public
Schools (BCPS) under grant number EHR-0227256 for the period October 1, 2002 to December 31,
2004. BCPS, as a Federal awardee, is required to follow the cost principles specified in Office of
Management and Budget (OMB) Circular A-87, Cost Principles for State, Local and Indian Tribal
Governments, and federal administrative requirements contained in OMB Circular A-102, Grants and
Cooperative Agreements With State and Local Governments. In addition, as an NSF awardee, BCPS is
required to follow provisions for financial management systems and cost sharing in OMB Circular A-
110, Uniform Administrative Requirements for Grants and Agreements with Institutions of Higher
Education, Hospitals, and Other Non-Profit Organizations.

BCPS was established in 1867 and ranks as the twenty-third largest school system in the United States.
It operates over 160 schools, including elementary schools, middle schools, high schools and special
schools in the north central part of the State of Maryland.

NSF awarded grant agreement no. EHR-0227256 to BCPS for the period October 1, 2002 to September
30, 2007 in the amount of $5,563,656 to establish a school-university partnership for excellence in
research-based science, technology, engineering and math education (SUPER STEM). BCPS
established University of Maryland Baltimore County (UMBC) as the sub-awardee for this grant. The
goal of the project was to increase student achievement in low-performing students, and target low-
performing schools in the BCPS system. The project planned to: (1) establish Visiting STEM
scholarships to attract scientists and educators to accelerate the development and teaching of new
curricula, (2) provide weekend and summer accelerated academic coursework for the lowest-performing
students and schools, (3) create STEM academics in the lowest-performing schools, (4) expand the
BCPS Urban Education Principal, Teacher and Intern Scholarships to recruit and retain the most talented
STEM educators to the lowest-performing schools, (5) provide over 100 hours of STEM training to
about 1800 teachers, and (6) conduct ongoing, hierarchical, multi-method longitudinal student and
teacher achievement analysis, performance assessments and work sampling.

At the request of BCPS, on January 1, 2005 NSF transferred the award to UMBC as the primary
awardee, with BCPS designated as the sub-awardee of the grant. The project was renamed as BCPS-
UMBC STEM Project and renumbered as NSF grant no. EHR-0514420.

Total costs reported by BCPS under the SUPER STEM grant for the period October 1, 2002 to
December 31, 2004 was $2,390,076. There was no cost sharing requirement for this award.




                                                  1
AUDIT OBJECTIVES, SCOPE AND METHODOLOGY

The objectives of our audit were to:

1. Determine if BCPS’s Schedule of Award Costs presents fairly, in all material respects, costs claimed
   on the Federal Cash Transaction Reports (FCTRs), and if costs claimed are in conformity with NSF
   award terms and conditions.

2. Identify matters concerning instances of noncompliance with laws, regulations, and the provisions of
   the award agreement pertaining to the NSF award and weaknesses in BCPS’s internal control over
   financial reporting that could have a direct and material effect on the Schedule of Award Costs and
   BCPS’s ability to properly administer, account for, and monitor its NSF award.

We audited costs claimed under NSF Grant Agreement No. EHR-0227256 for the period October 1,
2002 to December 31, 2004. We conducted our audit in accordance with auditing standards generally
accepted in the United States of America, Government Auditing Standards (2003 Revision) issued by
the Comptroller General of the United States, and the National Science Foundation Audit Guide,
September 1996, as applicable. These standards and the National Science Foundation Audit Guide
require that we plan and perform the audit to obtain reasonable assurance about whether amounts
claimed to NSF as presented in the Schedule of Award Costs (Schedule A) are free of material
misstatements. An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the Schedule of Award Costs. An audit also includes assessing the accounting principles
used and the significant estimates made by BCPS, as well as evaluating the overall financial schedule
presentation. We believe that our audit provides a reasonable basis for our opinion.


SUMMARY OF AUDIT RESULTS

An audit was performed on the costs claimed on the financial reports submitted to NSF by BCPS on
NSF award number EHR-0227256. These costs and the costs questioned as a result of our audit are
shown in the Schedule of Award Costs (Schedule A) and are summarized as follows:

                                       Funding         Award          Claimed        Questioned
         NSF Award No.                  Source         Budget          Costs           Costs
    EHR-0227256                  NSF-Funded        $   2,815,986       2,390,076           16,522
                                 Total Project     $   2,815,986       2,390,076           16,522




                                                  2
____________________________________________________________________________________

Except for the $16,522 in questioned indirect costs described below, we determined that the costs
claimed by BCPS appear fairly stated and are allowable, allocable, and reasonable for the NSF award.

Specifically, we questioned $16,522 of indirect costs because BCPS overcharged indirect costs to its
NSF grant as a result of it erroneously applying its NSF approved Maryland State Department of
Education indirect cost rate of 2.7% to the wrong cost base. According to Maryland State Department
of Education guidelines, and BCPS’s NSF grant agreement, the cost base used to calculate indirect costs
should have excluded all equipment purchases over $1,000. However, BCPS included in its cost base
all equipment purchases that were less than $5,000. This $5,000 threshhold was not consistent with the
Maryland State Department of Education guidelines and the requirements of its NSF grant.

Our audit determined that this error occurred because BCPS did not have adequate policies and
procedures for the calculation of indirect costs and thus, BCPS could not ensure that the cost base it used
to calculate its indirect costs was consistent with the requirements of the Maryland State Department of
Education guidelines or the terms of its NSF grant. This control deficiency also precluded BCPS from
ensuring that the indirect costs it claimed on its NSF grant were as prescribed in its NSF approved grant
budget.

Accordingly, we recommend that NSF Directors of the Division of Institution and Award Support
(DIAS) and the Division of Grants and Agreements (DGA) direct BCPS to develop and implement
written policies and procedures for the calculation of indirect costs, including the formulation of the cost
base, and that these policies and procedures be consistent with the Maryland State Department of
Education guidelines and the NSF approved grant budget.

The awardee responded to the draft report on July 26, 2006. In its response, the awardee stated that it
disagrees with the finding that its policies and procedures for calculating indirect costs are inadequate.
The awardee cited Maryland Department of Education Rule 3122 as being the policy it has had in place
since September 2002 and that this rule guides its fiscal department in the recovery of indirect costs.
BCPS, however, did concur with the computation of the $16,522 in questioned indirect costs. Finally,
the awardee indicated that it is considering automating the process for the calculation of indirect costs
through the use of a system interface with its Advantage Financial System.

The finding in this report should not be closed until NSF has determined that the recommendation has
been adequately addressed and the proposed corrective actions have been satisfactorily implemented.

For a complete discussion of the audit finding, refer to the Independent Auditors’ Report on Compliance
and Other Matters and on Internal Control over Financial Reporting.




                                                     3
EXIT CONFERENCE

We discussed the finding at an informal exit conference on March 2, 2006 at BCPS’s office. We
discussed the preliminary finding and recommendation noted during the audit. Representing BCPS was:


        Name                                 Title

        XXXXXXXX                             Controller


       Representing Mayer Hoffman McCann P.C. was:

        Name                                 Title

        XXXXXXXX                             Principal




                                                 4
COMPLIANCE AND INTERNAL CONTROLS
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


                        INDEPENDENT AUDITOR’S REPORT ON
                      COMPLIANCE AND OTHER MATTERS AND ON
                   INTERNAL CONTROL OVER FINANCIAL REPORTING


We audited costs claimed as presented in the Schedule of Award Costs (Schedule A), which summarizes
financial reports submitted by Baltimore County Public Schools (BCPS) to the National Science
Foundation (NSF) for the award and period listed below and have issued our report thereon dated March
2, 2006:

             Award Number                   Award Period                    Audit Period

            EHR – 0227256                 10/01/02 – 12/31/04            10/01/02 – 12/31/04


We conducted our audit of the Schedule of Award Costs as presented in Schedule A in accordance with
auditing standards generally accepted in the United States of America; Government Auditing Standards,
issued by the Comptroller General of the United States (2003 revision); and, the National Science
Foundation Audit Guide, September 1996,, as applicable. These standards and the National Science
Foundation Audit Guide require that we plan and perform the audit to obtain reasonable assurance that
the financial schedule is free of material misstatement.

COMPLIANCE WITH LAWS AND REGULATIONS AND OTHER MATTERS

Compliance with applicable federal laws, regulations, and NSF award terms and conditions is the
responsibility of BCPS’s management. As part of obtaining reasonable assurance about whether
BCPS’s financial schedule is free of material misstatement, we performed tests of BCPS’s compliance
with certain provisions of applicable laws, regulations, and NSF award terms and conditions,
noncompliance with which could have a direct and material effect on the determination of financial
schedule amounts. However, providing an opinion on compliance with those provisions was not an
objective of our audit and, accordingly, we do not express such an opinion. The results of our tests of
compliance disclosed one instance of noncompliance that is required to be reported under Government
Auditing Standards and the National Science Foundation Audit Guide and is described in Finding No. 1
below.



                                                  5
INTERNAL CONTROL OVER FINANCIAL REPORTING

BCPS management is responsible for establishing and maintaining internal controls. In fulfilling this
responsibility, estimates and judgments made by management are required to assess expected benefits
and related costs of internal control policies and procedures. The objectives of internal controls are to
provide management with reasonable, but not absolute, assurance that assets are safeguarded against
loss from unauthorized use or disposition, and that transactions are executed in accordance with
management’s authorization and recorded properly to permit the preparation of financial schedules in
accordance with accounting principles prescribed by the NSF. Because of inherent limitations in any
internal control, misstatements due to errors or fraud may nevertheless occur and not be detected. Also,
projection of any evaluation of internal control to future periods is subject to the risk that procedures
may become inadequate because of changes in conditions, or that the effectiveness of the design and
operation of policies and procedures may deteriorate.

In planning and performing our audit of the Schedule of Award Costs (Schedule A) for the period
October 1, 2002 to December 31, 2004, we considered BCPS’s internal control over financial reporting
in order to determine our auditing procedures for the purpose of expressing our opinion on the financial
schedule and not to provide an opinion on the internal control over financial reporting. Accordingly, we
do not express such an opinion.

We noted, however, a matter described below involving the internal control over financial reporting and
its operation that we consider a reportable condition under standards established by the American
Institute of Certified Public Accountants. Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of the internal control over financial
reporting that, in our judgment, could adversely affect BCPS’s ability to record, process, summarize,
and report financial data consistent with management’s assertions in the financial schedule. The
reportable condition we identified is described in Finding No.1 below.

A material weakness is a reportable condition in which the design or operation of one or more of the
internal control elements does not reduce, to a relatively low level, the risk that misstatements caused by
error or fraud in amounts that would be material in relation to the financial schedules being audited may
occur and not be detected within a timely period by employees in the normal course of performing their
assigned functions. Our consideration of internal control over financial reporting would not necessarily
disclose all matters related to internal control over financial reporting that might be reportable conditions
and, accordingly, would not necessarily disclose all reportable conditions that are also considered to be a
material weakness. We do not consider the reportable condition described below to be a material
weakness.




                                                     6
FINDING AND RECOMMENDATION

Finding 1. Lack of Adequate Policies and Procedures for the Calculation of Indirect Costs

BCPS did not have adequate policies and procedures for the calculation of the indirect costs that it
charged to its NSF grant. As a result, it overcharged $16,522 of indirect costs to the grant.

According to the terms of NSF Award Number EHR-0227256, NSF approved BCPS’s use of the
Maryland State Department of Education indirect cost rate of 2.7%. According to Maryland State
Department of Education guidelines, the indirect cost rate of 2.7% should have been applied to a cost
base that excluded all equipment purchases over $1,000. However, BCPS included in its cost base all
equipment purchases that were less than $5,000. BCPS personnel advised us they inadvertently utilized
a $5,000 equipment threshold because NSF generally allows for such an equipment threshold for cost
base calculations. Nonetheless, the use of the $5,000 threshold was not consistent with the Maryland
State Department of Education Guidelines and the terms of its NSF grant.

As a result of the $5,000 threshold, equipment purchases ranging in value between $1,000 and $5,000,
and totaling $611,929, were incorrectly included in the cost base BCPS used to calculate indirect costs
that it charged to its NSF grant. This resulted in an overcharge by BCPS of indirect costs to NSF in the
amount of $16,522. We questioned these costs.


Recommendation 1:

We recommend the NSF Directors of the Division of Institution and Award Support (DIAS) and the
Division of Grants and Agreements (DGA) direct BCPS to develop and implement policies and
procedures for the calculation of indirect costs, including the formulation of the cost base, and that these
policies and procedures be consistent with the Maryland State Department of Education guidelines and
the terms of BCPS’s NSF grant award.

Awardee Comments

BCPS stated that it disagrees with the finding that its policies and procedures for calculating indirect
costs are inadequate. It cited the Maryland Department of Education Rule 3122 as being the policy it
has had in place since September 2002 and that this rule guides its fiscal department in the recovery of
indirect costs. BCPS, however, did concur with the computation of the $16,522 in questioned indirect
costs. BCPS also indicated that it is considering automating the process for the calculation of indirect
costs through the use of a system interface with its Advantage Financial System.


Auditor’s Response

We acknowledge Rule 3122 as BCPS’ Indirect Cost guidance. However, we believe that had the policy
and procedure been adequate, the error in computing indirect costs would not have occurred. We further
recognize that automating this process will alleviate the possibility of human error.



                                                     7
This report is intended solely for the information and use of BCPS’s management, the National Science
Foundation, BCPS’s federal cognizant agency, the Office of Management and Budget, and the Congress
of the United States of America and is not intended to be and should not be used by anyone other than
those specified parties.




MAYER HOFFMAN McCANN P.C.
Irvine, California
March 2, 2006




                                                 8
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230




             INDEPENDENT AUDITORS’ REPORT ON FINANCIAL SCHEDULE


We have audited the costs claimed by Baltimore County Public Schools (BCPS) to the National Science
Foundation (NSF) on the Federal Cash Transactions Reports (FCTRs) for the NSF award listed below.
The FCTRs, as presented in the Schedule of Award Costs (Schedule A), are the responsibility of BCPS’
management. Our responsibility is to express an opinion on the Schedule of Award Costs (Schedule A)
based on our audit.


              Award Number                Award Period                   Audit Period
              EHR-0227256                 10/01/02 – 12/31/04          10/01/02 – 12/31/04


Except as discussed in the following paragraph, we conducted our audit in accordance with auditing
standards generally accepted in the United States of America; Government Auditing Standards (2003
revision), issued by the Comptroller General of the United States; and, the National Science Foundation
Audit Guide, September 1996, as applicable. These standards and the National Science Foundation
Audit Guide, require that we plan and perform the audit to obtain reasonable assurance that the amounts
claimed to NSF as presented in the Schedule of Award Costs (Schedule A) are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the Schedule of Award Costs (Schedule A). An audit also includes assessing the
accounting principles used and the significant estimates made by BCPS, as well as evaluating the overall
financial schedule presentation. We believe that our audit provides a reasonable basis for our opinion.




                                                   9
National Science Foundation
Office of Inspector General
Page Two


The Schedule of Questioned Costs (Schedule B) explains the $16,522 (0.6%) of total claimed NSF funds
that we have questioned for allowability. These costs represent incorrectly computed indirect costs.

Questioned costs are (1) costs for which documentation exists to show that recorded costs were
expended in violation of laws, regulations, or specific award conditions, (2) costs that require additional
support by awardee, or (3) costs that require interpretation of allowability by NSF’s Division of
Institution and Award Support (DIAS). NSF will make the final determination of cost allowability. The
ultimate outcome of this determination cannot presently be determined. Accordingly, no adjustment has
been made to costs claimed for any potential disallowance by NSF.

In our opinion, except for the $16,522 of questioned NSF-funded costs, the Schedule of Award Costs
(Schedule A) referred to above presents fairly, in all material respects, costs claimed on FCTRs for the
period October 1, 2002 to December 31, 2004 in conformity with the National Science Foundation
Audit Guide, NSF Grant Policy Manual, terms and conditions of the NSF award and on the basis of
accounting described in the Notes to the Financial Schedule. This schedule is not intended to be a
complete presentation of BCPS’s financial position in conformity with accounting principles generally
accepted in the United States of America.

In accordance with Government Auditing Standards, and provisions of the National Science Foundation
Audit Guide, we have also issued a report dated March 2, 2006, on our tests of BCPS’ compliance with
certain provisions of laws, regulations, and NSF award terms and conditions and our consideration of
BCPS’s internal control over financial reporting. The purpose of that report is to describe the scope of
our testing, and not to provide an opinion on the internal control over financial reporting or on
compliance. That report is an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in considering the results of our
audit.

This report is intended solely for the information and use of BCPS’ management, NSF, BCPS’s federal
cognizant agency, the Office of Management and Budget, and the Congress of the United States of
America and is not intended to be, and should not be used by anyone other than these specified parties.




MAYER HOFFMAN McCANN P.C.
Irvine, California
March 2, 2006


                                                    10
<Insert Schedule A>




        11
                                                                                          SCHEDULE B

                           BALTIMORE COUNTY PUBLIC SCHOOLS
                            National Science Foundation Award Numbers:
                                           EHR-0227256
                                    Schedule of Questioned Costs
                             From October 1, 2002 to December 31, 2004


Note B-1      Indirect Costs

              BCPS did not have adequate policies and procedures for the calculation of the indirect
              costs that it charged to its NSF grant. As a result, it overcharged $16,522 of indirect costs
              to the grant.

              According to the terms of NSF Award Number EHR-0227256, NSF approved BCPS’s
              use of the Maryland State Department of Education indirect cost rate of 2.7%. According
              to Maryland State Department of Education guidelines, the indirect cost rate of 2.7%
              should have been applied to a cost base that excluded all equipment purchases over
              $1,000. However, BCPS included in its cost base all equipment purchases that were less
              than $5,000. The use of the $5,000 threshold was not consistent with the Maryland State
              Department of Education Guidelines and the terms of BCPS’s NSF grant award.

              As a result of the $5,000 threshold, equipment purchases ranging in value between
              $1,000 and $5,000, and totaling $611,929, were incorrectly included in the cost base
              BCPS used to calculate indirect costs that it charged to its NSF grant.

              Indirect costs claimed to the grant totaling $27,514 represent an overstatement of
              $16,522. Our computation of indirect costs that should have been claimed was prepared
              by applying the approved indirect cost rate to the appropriate base. Had this approach
              been used by BCPS, indirect costs claimed to the grant would have been $10,992
              ($27,514 less $16,522). (See Finding and Recommendation No. 1 on the Independent
              Auditor’s Report on Compliance and Other Matters and on Internal Control Over
              Financial Reporting.)

               Costs reclassified as equipment costs                           $ 611,929
               Approved indirect cost rate                                        2.70%
               Questioned indirect costs                                       $   16,522


Awardee Comments

BCPS stated that it disagrees with the finding that its policies and procedures for calculating indirect
costs are inadequate. It cited the Maryland Department of Education Rule 3122 as being the policy it
has had in place since September 2002 and that this rule guides its fiscal department in the recovery of
indirect costs. BCPS, however, did concur with the computation of the $16,522 in questioned indirect
costs. BCPS also indicated that it is considering automating the process for the calculation of indirect
costs through the use of a system interface with its Advantage Financial System.

                                                   12
Auditor’s Response

We acknowledge Rule 3122 as BCPS’ Indirect Cost guidance. However, we believe that had the policy
and procedure been adequate, the error in computing indirect costs would not have occurred. We further
recognize that automating this process will alleviate the possibility of human error.




                                                 13
                                                                              SCHEDULE C

                     BALTIMORE COUNTY PUBLIC SCHOOLS
                      National Science Foundation Award Numbers:
                                     EHR-0227256
                   Summary Schedule of Award Audited and Audit Results
                       From October 1, 2002 to December 31, 2004


Summary of Awards Audited
Award Number             Award Period                  Audit Period
EHR-0227256            10/01/02 – 12/31/04          10/01/02 – 12/31/04

 Type of Award                        Award Description
     Grant          To increase achievement in low-performing students, and
                    target low-performing schools in the Baltimore County
                    Public Schools system.


Summary of Questioned and Unsupported Costs
                                          Questioned         Unsupported
 Award Budget      Claimed Costs            Costs               Costs
  $ 2,815,986       $ 2,390,076            $ 16,522              $0


Summary of Questioned Costs by Explanation
                             Questioned           Internal
        Category               Costs              Controls         Non-Compliance
Indirect Costs                $ 16,522              Yes                 Yes


Summary of Non-Compliance and Internal Control Findings

                                   Non-Compliance or Internal         Material or
            Findings                      Control?                    Reportable?
Indirect Costs                       Compliance & Internal             Reportable
                                           Control




                                             14
                          BALTIMORE COUNTY PUBLIC SCHOOLS
                                  Notes to Financial Schedule
                           From October 1, 2002 to December 31, 2004


Note 1:   Summary of Significant Accounting Policies

          Accounting Basis
          The accompanying financial schedules have been prepared in conformity with National
          Science Foundation (NSF) instructions. Schedule A has been prepared from the reports
          submitted to NSF. The basis of accounting utilized in preparation of these reports differs
          from generally accepted accounting principles. The following information summarizes these
          differences:

           A. Equity
               Under the terms of the award, all funds not expended according to the award agreement
               and budget at the end of the award period are to be returned to NSF. Therefore, the
               awardee does not maintain any equity in the award and any excess cash received from
               NSF over final expenditures is due back to NSF.

           B. Equipment
               Equipment is charged to expense in the period during which it is purchased instead of
               being recognized as an asset and depreciated over its useful life. As a result, the
               expenses reflected in the Schedule of Award Costs include the cost of equipment
               purchased during the period rather than a provision for depreciation.
               The equipment acquired is owned by BCPS while used in the program for which it was
               purchased or in other future authorized programs. However, NSF has the reversionary
               interest in the equipment. Its disposition, as well as the ownership of any proceeds there
               from, is subject to Federal regulations.

           C. Inventory
               Minor materials and supplies are charged to expense during the period of purchase. As a
               result, no inventory is recognized for these items in the financial schedule.

           D. Income Taxes
               BCPS is a state government entity of the State of Maryland and is exempt from income
               taxes.


          The departure from generally accepted accounting principles allows NSF to properly monitor
          and track actual expenditures incurred by the awardee. The departure does not constitute a
          material weakness in internal controls.




                                                  15
                         BALTIMORE COUNTY PUBLIC SCHOOLS
                                 Notes to Financial Schedule
                          From October 1, 2002 to December 31, 2004


Note 2:   Indirect Cost Rate

                                  Indirect
            Award Number         Cost Rate                             Base
           EHR- 0227256            2.70%     Modified Total Direct Costs (Total direct salaries,
                                             fringe benefits, travel, materials, supplies,
                                             publication, and other direct costs except subaward,
                                             participant support costs and individual equipment
                                             purchases over $1,000).




                                             16
APPENDIX - AWARDEE’S COMMENTS TO
             REPORT
     BALTIMORE COUNTY PUBLIC SCHOOLS 

                  Superintendent                           6901 Charles Street    Towson, MD * 21204-3711

July 20, 2006



                    CPA, CFE 

Mayer Hoffian McCann P.C. 

230 1 Dupont Drive, Suite 200 

Irvine, California 92612 




We have reviewed the draft audit report covering the National Science Foundation (NSF) a&d No.            .
EHR-0227256 awarded to Baltimore County Public schools during the period of October 1,2002,
through December 3 1,2004.                                                           . .


We have found the data presented -tobeaccurate. We concur with the calculation of the questioned costs.
based on the interpretation of the equipment threshold of $1,000. However, we do not concur with the          '



reason for the finding to be the lack of adequate policies and procedures for the calculation of indirect 

costs, or the recommendation to develop and implement policies and procedures for the calculation of . -           . . 

indirect costs. 


We believe we have adiiuate policies and procedures for the calculation of indirect costs. They are 

stated in Superintendent's Rule 3 122, Classification of Exuenditures- Indirect Costs approved on 

September 24,2002. The rule incorporates the guidance for indirect cost plans provided by the Maryland 

State Department of Education in the Financial ReportingManualfor Malyland Public Schools. A copy 

of the rule is attached for your review. 


In order to assist with the consistent application of this rule, we will be evaluating the use of an automated 

interface in our newly implemented Advantage Financial system. In the meantime, our manual process 

includes a review process, and our staff have been reminded to follow the rule. We are not aware of any 

other diversions fiom the rule. 


                          estions regarding our comments, please call a g p l ) r                 email me at


Sincerely,    ,




Enclosure

c:
                                             rintendent, Business Services




                                Focrcsed on Quality; Cornnzitted to Excellence
Classification of Expenditures

Indirect Costs

 1. 	   As used in this rule, indirect costs are defined as those allocations of administrative
        expenditures necessary to manage grant programs. Fiscal Services shall charge all
        grants indirect costs.

2. 	 This rule sets forth the definition, purpose and classification of indirect costs for
     grant budgets.

3. 	 Fiscal Services shall establish procedures to ensure that all grant budgets include
     indirect costs, and to account for indirect cost funds collected in accordance with the
     Financial Reporting Manual for Maryland Public Schools.

4.. 	   All grant managers shall include indirect costs when the budget is prepared and
        submitted, except where the charging of indirect costs is prohibited by the granting
        agent.

5. 	    Annually, the Maryland State Department of Education (MSDE) calculates the
        indirect cost rate plan for Baltimore County Public Schools. This rate will be
        applied to all grants, unless prohibited by the granting agent.

6 . 	 Fiscal Services will be responsible for collecting indirect costs from the grants.
      Funds will be allocated to the indirect cost recovery fund.

7. 	 Fiscal Services prepares the proposed draft of expenditures from indirect cost
        recovery h d s with input fi-om BCPS staff for approval by the superintendent.

8. 	    Fiscal Services will prepare indirect cost recovery budget for inclusion in the
        operating budget in the special revenue fund.

Rule                                                                               Superintendent of Schools
Approved: 9/24/02

                                                        1
                        Copyright O ZOO2 Baltimore County Public Schools. All rights resewed
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

             Internet
          www.oig.nsf.gov

           Email Hotline
           oig@nsf.gov

            Telephone
           703-292-7100

             Toll-free
          1-800-428-2189


               Fax
           703-292-9158


                 Mail
     Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
        Arlington, VA 22230
